WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-1064

Kealii Makekau, et al.

State of Hawaii, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

State of Hawaii, David Y. Ige, John D. Waihe'e III, Na'alehu Anthony,
Lei Kihoi, Robin Danner, Mahealani Wendt, Clyde W. Namu'o
El I am a member of the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature

March
March 12, 2020

Date,

(Type or print) Name

Robert T. Nakatsuji
0 Mr. 0 Ms. D Mrs. 0 Miss

Firm

Dartment of the Attorney General, State of Hawaii

Address

425 Queen Street

City & State
Phone

Honolulu, HI

(808) 586-1360

Zip
Email

96813

robert.t.nakatsuji@hawaii.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Robert D. Popper, Eric W. Lee, Robert G. Klein, Kurt W. Klein, Kannon Shanmugam,
Miyoko T. Pettit-Toledo, David J. Minkin, William Meheula, Natasha L.N. Bal1auRECEIVED

MAR 17 7171
OFFICE OF THE CLERK
SUPREME COURT, U.S.

